IN THE
SUPREME COURT OF THE UNITED STATES

Charles Dennis Friedman v. United States of America
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit

APPENDIX A
10 Circuit Order and Judgment
th

Appellate Case: 19-4127

Document: 010110383036

Date Filed: 07/28/2020

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
UNITED STATES OF AMERICA,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

July 28, 2020
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellee,
v.
CHARLES DENNIS FRIEDMAN,

No. 19-4127
(D.C. Nos. 2:18-CV-00906-RJS &
2:99-CR-00100-DB-1)
(D. Utah)

Defendant - Appellant.
_________________________________
ORDER AND JUDGMENT*
_________________________________
Before BRISCOE, BALDOCK, and CARSON, Circuit Judges.
_________________________________

Petitioner Charles Friedman, a federal prisoner appearing pro se, filed a
motion under 28 U.S.C. § 2255 to vacate, set aside, or correct sentence. The district
court dismissed the motion as untimely. Friedman now appeals. Exercising
jurisdiction pursuant to 28 U.S.C. §1291, we affirm.

*

After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 19-4127

Document: 010110383036

Date Filed: 07/28/2020

Page: 2

I
We begin by summarizing the criminal proceedings that preceded Friedman’s
filing of the instant § 2255 motion. Friedman, as this court noted in a 2007 decision,
“is a serial bank robber.” United States v. Friedman, 554 F.3d 1301, 1302 (10th Cir.
2009) (Friedman 2007). In 1986, Friedman robbed two banks—one in Utah and one
in Arizona. Friedman was subsequently charged with and convicted of both crimes.
He received a 20-year sentence for the Utah robbery and a consecutive 3-year
sentence for the Arizona robbery. Both of “these sentences were imposed under the
law in effect prior to the existence of the Sentencing Guidelines.” Id. at 1303 n.2.
Friedman was paroled on June 13, 1998. At that time, he had approximately 2,911
days remaining to be served on the sentences.
Shortly thereafter, Friedman resumed his criminal activities. In March of
1999, he was indicted in the United States District Court for the District of Utah on
three counts of bank robbery that occurred during a three-week period in late
December 1998 and January 1999.
In August 2000, Friedman entered into a plea agreement in which he pleaded
guilty to one count in exchange for the government dismissing the remaining two
counts. In Paragraph 2 of the plea agreement, Friedman agreed, in pertinent part: “I
understand that a term of supervised release will be added to any prison term
imposed. If I violate the supervised release term, I can be returned to prison for the
remainder of my sentence and for the full length of the supervised release term.”
ROA, Vol. 1 at 19 (emphasis in original). In Paragraph 13(a) of the agreement, the
2

Appellate Case: 19-4127

Document: 010110383036

Date Filed: 07/28/2020

Page: 3

government “agree[d] to recommend that [Friedman’s] prior convictions for bank
robbery in 1986 be construed as related offenses pursuant to [the] United States
Sentencing Guidelines because they were part of a common plan or scheme.” Id. at
20. The government “further agree[d],” in Paragraph 13(a) of the agreement, “to
recommend that any sentence imposed on the instant offense be served concurrently
with any and all undischarged terms of imprisonment, including the remainder of the
undischarged term of imprisonment due to the 1986 bank robberies.” Id.
In October 2000, Friedman was sentenced to a term of imprisonment of 71
months, to be followed by a three-year term of supervised release. Id. at 27. The
district court ordered the sentence to run concurrently with any term of imprisonment
that the United States Parole Commission might impose on Friedman for violating
the terms of his parole.
Following Friedman’s sentencing, the Parole Commission lodged a parole
warrant as a detainer, but refused to execute on the parole warrant until Friedman
completed his sentence for the 1999 bank robbery.
In December 2002, Friedman filed a § 2255 motion arguing that the Parole
Commission was bound by, and in turn had violated, the 2000 plea agreement by not
executing on the parole warrant and allowing Friedman to be released to its detainer
against him in order to effectuate the concurrent sentence ordered by the district
court. The Federal Bureau of Prisons in turn informed the district court that it was
unable to run Friedman’s sentence concurrently to whatever sentence the Parole
Commission might impose when it ultimately executed its parole warrant. In May
3

Appellate Case: 19-4127

Document: 010110383036

Date Filed: 07/28/2020

Page: 4

2003, the district court granted Friedman’s § 2255 motion and ordered that Friedman
would be considered to have been released on October 17, 2000, to the custody of the
United States Marshals Service pending the Parole Commission’s further instruction
and disposition of its pending warrant against Friedman. In doing so, the district
court did not conclude that the Parole Commission breached the 2000 plea
agreement.
On June 21, 2005, the district court vacated and withdrew its May 2003 order,
and entered a new order reducing Friedman’s sentence for the 2000 conviction from
71 months to one day of imprisonment, plus three years of supervised release.
On June 24, 2005, the Parole Commission mandatorily released Friedman from
custody. At that time, there were approximately 1,195 days remaining on the
sentences imposed for the 1986 bank robbery convictions. Friedman was placed on
supervised release for the 2000 bank robbery conviction and remained on parole for
the 1986 bank robberies and convictions.
In November 2005, Friedman robbed a bank in Utah. He was indicted for that
crime and also charged with violating the terms of his supervised release. The case
was transferred to the district court judge that presided over Friedman’s earlier
criminal proceedings, and consolidated with proceedings to revoke Friedman’s
supervised release on the 2000 bank robbery conviction. Friedman pleaded guilty to
the November 2005 bank robbery, and to violating the terms of his supervised
release. On March 1, 2007, the district court sentenced Friedman to a belowguideline sentence of 57 months’ imprisonment for the 2005 bank robbery
4

Appellate Case: 19-4127

Document: 010110383036

Date Filed: 07/28/2020

Page: 5

conviction, and a consecutive term of imprisonment of 24 months for the supervised
release violations.1
The government appealed, arguing that the 57-month sentence for the 2005
bank robbery conviction was substantively unreasonable. This court agreed,
concluding that “the district court abused its broad discretion in significantly varying
downward from the advisory Guidelines range to sentence Friedman as if he were not
a career offender.” Friedman 2007, 554 F.3d at 1312. Accordingly, this court
reversed the sentence imposed by the district court and remanded for resentencing.
On remand, the case was assigned to a different judge. At the resentencing
hearing on July 22, 2011, the district court noted that Friedman’s criminal record was
so extensive that he merited a sentence of 188 months’ imprisonment, a term at the
very top of the guidelines range. But the district court ultimately imposed a sentence
of 151 months’ imprisonment in order to account, in part, for the fact that Friedman
faced a separate and consecutive prison term for violating the term of supervised
release that he was serving in connection with his 2000 bank robbery conviction.
Friedman appealed the 151-month sentence, arguing that it was both
procedurally and substantively unreasonable. On October 17, 2012, this court
rejected Friedman’s arguments and affirmed the sentence. United States v.
Friedman, 499 F. App’x 807, 808, 812 (10th Cir. 2012).

1

The presentence investigation report for the 2005 bank robbery conviction
calculated an offense level of 29, a criminal history category of VI, and a resulting
sentencing range of 151 to 188 months.
5

Appellate Case: 19-4127

Document: 010110383036

Date Filed: 07/28/2020

Page: 6

On June 19, 2013, the Parole Commission notified Friedman and the BOP that
the Parole Commission would let his detainer stand.
In May 2018, Friedman moved to amend the § 2255 motion he filed in
December 2002. In his motion, Friedman asserted that the Parole Commission was
continuing to violate the 2000 plea agreement by frustrating the government’s
promised recommendation for concurrent service of sentences. Relatedly, Friedman
moved to set aside the judgment in the 2002 § 2255 proceeding so that he could
amend his motion. In October 2018, the district court denied Friedman’s motions.
Friedman did not appeal from that decision.
On October 14, 2018, Friedman finished serving the 151-month sentence for
the 2005 bank robbery and the consecutive 24-month sentence that was imposed for
violating the term of supervised release in connection with his 2000 bank robbery
conviction. On that same date, Friedman began serving the time that remained on his
1986 bank robbery sentences as a punishment for his parole violations. Once that
time is served, Friedman is scheduled to begin serving his supervised release term for
the 2005 robbery.
II
We now turn to the procedural history of Friedman’s current § 2255 motion.
Friedman initiated these proceedings on November 20, 2018, when he filed a § 2255
motion in the district court. ROA, Vol. 1 at 6. Friedman alleged in his motion “that
the acts or omissions of the United States Parole Commission (USPC) frustrate[d] or
otherwise violate[d] the promised recommendation by the government for concurrent
6

Appellate Case: 19-4127

Document: 010110383036

Date Filed: 07/28/2020

Page: 7

service of his sentneces [sic], as . . . set forth in the [2000] plea agreement” that
pertained to his three bank robberies in 1998 and 1999. Id. at 7. More specifically,
Friedman argued that the reference in the 2000 plea agreement to concurrent
sentences also applied to the 24-month sentence that was imposed in 2007 for
violation of the term of supervised release that he was serving for the 2000 bank
robbery conviction. Friedman alleged that his claim did not ripen until the Parole
Commission “execute[d] its violator warrant [on] October 14, 2018.” Id. at 13.
Friedman asked the district court to “remedy the [Parole Commission’s] breach of the
plea agreement by vacating the 24-month [supervised release] term [of
imprisonment] it handed down in 2007 . . . and re-imposing a 1-day [supervised
release] term [of imprisonment] in its place.” Id. at 35.
On May 24, 2019, the district court issued a memorandum decision and order
denying Friedman’s § 2255 motion as untimely. The district court also entered final
judgment on that same date.
On June 21, 2019, Friedman filed a motion to alter or amend the judgment.
On August 16, 2019, the district court denied Friedman’s motion.
Friedman filed a notice of appeal on August 26, 2019. On September 9, 2019,
Friedman filed a motion for certificate of appealability (COA). On November 4,
2019, the district court granted Friedman a COA.

7

Appellate Case: 19-4127

Document: 010110383036

Date Filed: 07/28/2020

Page: 8

III
We review the district court’s conclusions of law, including its determination
that Friedman’s § 2255 motion was untimely, de novo. See United States v. Barrett,
797 F.3d 1207, 1213 (10th Cir. 2015).
Under 28 U.S.C. § 2255(f), “[a] 1-year period of limitation” applies to any
motion filed under § 2255. That limitation period runs from the latest of:
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by
governmental action in violation of the Constitution or laws of the
United States is removed, if the movant was prevented from making a
motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the
Supreme Court, if that right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented
could have been discovered through the exercise of due diligence.
28 U.S.C. § 2255(f).
The judgment of conviction at issue is Friedman’s conviction for the 2005 bank
robbery. That judgment became final no later than 2012, following this court’s
affirmance of Friedman’s 151-month sentence.2 Under the general limitation period set
forth in § 2255(f)(1), Friedman’s current motion filed November 20, 2018 is clearly
untimely.

2

The 24-month consecutive sentence that was imposed for Friedman violating
his term of supervised release arguably became final in 2007, when Friedman failed
to challenge it in his initial appeal.
8

Appellate Case: 19-4127

Document: 010110383036

Date Filed: 07/28/2020

Page: 9

Friedman effectively relies on § 2255(f)(4) to render his motion timely, arguing
that his claim did not ripen until October 14, 2018, when he began serving the time that
remained on his 1986 bank robbery sentences as a punishment for his parole violations.
We conclude, however, that Friedman’s motion is not timely under § 2255(f)(4).
As the district court noted, the record in this case establishes that on June 19,
2013, the Parole Commission notified Friedman that it intended to let his detainer stand.
In other words, the Parole Commission notified Friedman on that date that it intended to
prevent his immediate release upon completion of his 151-month sentence for the 2005
robbery and the consecutive 24-month sentence for his violation of supervised release in
connection with his 2000 robbery conviction. The district court concluded, and we agree,
that this June 9, 2013 notice was sufficient to reasonably give rise to the claim now
asserted by Friedman in his § 2255 motion. Thus, Friedman had one year from that date,
or until approximately June 9, 2014, to assert the claim he now seeks to assert in his
§ 2255 motion.
Finally, even assuming that Friedman’s § 2255 motion was somehow timely, it is
apparent from the record that it lacks merit. Nothing in the 2000 plea agreement could
reasonably be construed as guaranteeing Friedman that the sentence imposed by the
Parole Commission would run concurrently with any sentence he might receive if he
violated the term of supervised release that was imposed for his 2000 robbery conviction.
Indeed, for us to construe the 2000 plea agreement in that manner, we would have to
conclude that the parties anticipated that Friedman, following the completion of the term
of imprisonment imposed for the 2000 robbery conviction, would commit new crimes
9

Appellate Case: 19-4127

Document: 010110383036

Date Filed: 07/28/2020

Page: 10

and violate his term of supervised release. The terms of the plea agreement, however,
indicate otherwise. For example, Friedman expressly acknowledged in the agreement
that, if he violated his term of supervised release, he could “be returned to prison for the
remainder of [his] sentence and for the full length of the supervised release term.” ROA,
Vol. 1 at 19 (emphasis in original). Moreover, the two sentences that were imposed by
the district court following Friedman’s 2005 robbery conviction, including the 24-month
sentence for violating his term of supervised release, were not ordered by the district
court to run concurrently with any sentence remaining to be served for his 1986 robbery
convictions.
AFFIRMED.
Entered for the Court

Mary Beck Briscoe
Circuit Judge

10

Appellate Case: 19-4127

Document: 010110383042

Date Filed: 07/28/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157
Christopher M. Wolpert
Clerk of Court

July 28, 2020

Jane K. Castro
Chief Deputy Clerk

Mr. Grant R Smith
Office of the Federal Public Defender
Districts of Colorado and Wyoming
633 17th Street, Suite 1000
Denver, CO 80202
RE:

19-4127, United States v. Friedman
Dist/Ag docket: 2:18-CV-00906-RJS, 2:99-CR-00100-DB-1

Dear Counsel:
Enclosed is a copy of the order and judgment issued today in this matter. The court has
entered judgment on the docket pursuant to Fed. R. App. P. Rule 36.
Pursuant to Fed. R. App. P. Rule 40(a)(1), any petition for rehearing must be filed within
14 days after entry of judgment. Please note, however, that if the appeal is a civil case in
which the United States or its officer or agency is a party, any petition for rehearing must
be filed within 45 days after entry of judgment. Parties should consult both the Federal
Rules and local rules of this court with regard to applicable standards and requirements.
In particular, petitions for rehearing may not exceed 3900 words or 15 pages in length,
and no answer is permitted unless the court enters an order requiring a response. If
requesting rehearing en banc, the requesting party must file 6 paper copies with the clerk,
in addition to satisfying all Electronic Case Filing requirements. See Fed. R. App. P.
Rules 35 and 40, and 10th Cir. R.35 and 40 for further information governing petitions
for rehearing.

Appellate Case: 19-4127

Document: 010110383042

Date Filed: 07/28/2020

Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court

cc:

Elizabethanne Claire Stevens

CMW/mlb

Page: 2

